     Department of Homeland Security

     ��������������������������



     Department of Homeland Security’s FY 2013 

      Compliance with the Improper Payments 

        Elimination and Recovery Act of 2010 





OIG-14-64                                  April 2014

                        OFFICE OF INSPECTOR GENERAL 

                               Department of Homeland Security 

                                  Washington, DC 20528 / www.oig.dhs.gov


                                          APR 14 2014

    MEMORANDUM FOR:              Stacy Marcott
                                 Deputy Chief Financial Officer

    FROM:                        Anne L. Richards
                                 Assistant Inspector General for Audits

    SUBJECT:                     DepartmentfoffHomelandfSecurity’sfFYf2013fCompliancef
                                 withfthefImproperfPaymentsfEliminationfandfRecoveryfActf
                                 off2010ff

    Attached for your information is our final report, DepartmentfoffHomelandfSecurity’sf
    FYf2013fCompliancefwithfthefImproperfPaymentsfEliminationfandfRecoveryfActfoff2010.
    We incorporated the formal comments from the Departmental GAO-OIG Liaison Office
    in the final report.

    This report does not contain any new recommendations. However, one
    recommendation from our report DepartmentfoffHomelandfSecurity’sfFYf2012f
    CompliancefwithfthefImproperfPaymentsfEliminationfandfRecoveryfActfoff2010,
    OIG-13-47, March 2013, remains open and resolved. Once your office has fully
    implemented the recommendation, please submit a formal closeout request to us
    within 30 days so that we may close the recommendation. The request should be
    accompanied by evidence of completion of agreed-upon corrective actions.

    Consistent with our responsibility under the InspectorfGeneralfAct, we will provide
    copies of our report to appropriate congressional committees with oversight and
    appropriation responsibility over the Department of Homeland Security. We will post
    the report on our website for public dissemination.

    Please call me with any questions, or your staff may contact Mark Bell, Deputy Assistant
    Inspector General for Audits, at (202) 254-4100.

    Attachment






                                 OFFICE OF INSPECTOR GENERAL 

                                            Department of Homeland Security 



   Table of Contents
   Executive Summary ............................................................................................................ 1


   Background ........................................................................................................................ 2


   Results of Audit .................................................................................................................. 3


              DHS’ Compliance with IPERA .................................................................................. 3

              Accuracy and Completeness of DHS’ Improper Payment Reporting...................... 4

              Reducing and Recapturing Improper Payments ..................................................... 8

              Disbursement Testing ............................................................................................. 8


   Appendixes
              Appendix A:           Objectives, Scope, and Methodology ............................................. 9

              Appendix B:           Management Comments to the Draft Report .............................. 12 

              Appendix C:           IPERA Process ................................................................................ 14 

              Appendix D:           Open and Resolved Recommendation ......................................... 17 

              Appendix E:           DHS IPERA Risk Conditions............................................................ 18 

              Appendix F:           Major Contributors to This Report ............................................... 22 

              Appendix G:           Report Distribution ....................................................................... 23 





   Abbreviations
              AFR                   Annual Financial Report/Agency Financial Report1
              CBP                   U.S. Customs and Border Protection
              CFO                   Chief Financial Officer
              DHS                   Department of Homeland Security
              DNDO                  Domestic Nuclear Detection Office
              FEMA                  Federal Emergency Management Agency
              FY                    fiscal year
              IPERA                 ImproperfPaymentsfEliminationfandfRecoveryfActfoff2010
              IPIA                  ImproperfPaymentsfInformationfActfoff2002
              OIG                   Office of Inspector General
              OMB                   Office of Management and Budget

   1
    Annual Financial Report and Agency Financial Report are used synonymously throughout Federal
   guidance. For the purpose of this report, AFR will represent both the Annual Financial Report and Agency
   Financial Report.

www.oig.dhs.gov                                                                                                                 OIG-14-64 

                  OFFICE OF INSPECTOR GENERAL 

                        Department of Homeland Security 



           RM&A    Risk Management and Assurance
           TSA     Transportation Security Administration
           USCG    United States Coast Guard
           USSS    United States Secret Service




www.oig.dhs.gov                                             OIG-14-64

                      OFFICE OF INSPECTOR GENERAL 

                             Department of Homeland Security 



   Executive Summary
   In fiscal year (FY) 2010, the Federal government’s total improper payment amount
   reached $121 billion. In that same year, Congress passed the ImproperfPaymentsf
   EliminationfandfRecoveryfActfoff2010 (the Act) in an effort to reduce improper
   payments. In addition to reducing improper payments, the Act requires each agency’s
   Inspector General to determine whether the agency complies with the Act annually.
   Since the implementation of the Act, DHS has reduced it improper payment amount
   from $222 million in FY 2011 to $178 million in FY 2013.

   Our audit objective was to determine whether the Department of Homeland Security
   (DHS) complied with the Act in fiscal year 2013. In addition, we also evaluated the
   accuracy and completeness of DHS’ improper payment reporting and its efforts to
   reduce and recover improper payments for fiscal year 2013.

   We contracted with an independent public accounting firm, KPMG LLP, to determine
   whether DHS complied with the Act. KPMG LLP did not identify any instances of
   noncompliance with the Act.

   We reviewed the accuracy and completeness of DHS’ improper payment reporting and
   DHS’ efforts to reduce and recover improper payments. DHS has made significant
   improvements to its processes in the past year to help ensure the accuracy and
   completeness in reporting improper payments and in its efforts to reduce and recover
   overpayments. Specifically, in the past year DHS has—

       •	 segregated duties appropriately;
       •	 improved its review processes to help ensure that components’ risk assessments
          are properly supported;
       •	 improved its policies and procedures to identify, reduce, and report improper
          payments; and
       •	 improved its improper payment recovery efforts.

   We did not make any new recommendations in this year’s report. However, one
   recommendation in last year’s report, DepartmentfoffHomelandfSecurity’sfFYf2012f
   CompliancefwithfthefImproperfPaymentsfEliminationfandfRecoveryfActfoff2010, OIG-13-
   47, March 2013, remains open and resolved.




www.oig.dhs.gov                              1	                                     OIG-14-64

                       OFFICE OF INSPECTOR GENERAL 

                              Department of Homeland Security 



   Background
   On July 22, 2010, the President signed Public Law 111-204, ImproperfPaymentsf
   EliminationfandfRecoveryfActfoff2010 (IPERA or the Act). IPERA requires that the head of
   each agency periodically review all programs and activities administered, and identify
   those that may be susceptible to significant improper payments. For each program
   identified as susceptible to significant improper payments, the agency is required to
   produce a statistically valid estimate of the improper payments made by each program
   and activity. The agency is also required to include those estimates in the materials
   accompanying the agency’s annual financial statement. See appendix C for additional
   information on the IPERA process.

   The Office of Management and Budget (OMB) issued Circular A-123, Appendix C,
   RequirementsfforfEffectivefMeasurementfandfRemediationfoffImproperfPayments,
   revised parts I and II, April 14, 2011, as guidance for agencies to implement the
   requirements of IPERA. This guidance also describes the responsibilities of Inspectors
   General in determining their respective agency’s compliance with IPERA. In accordance
   with OMB’s guidance, the Inspector General should review improper payment reporting
   in the Agency Financial Report (AFR) and any accompanying information to ensure
   compliance with IPERA. As part of that review, the Inspector General should evaluate
   the accuracy and completeness of agency reporting, and evaluate agency efforts to
   reduce and recover improper payments, among other things.

   The DHS Office of Inspector General (OIG) has previously issued two reports on DHS’
   compliance with the Act and the Department’s efforts to reduce and recover improper
   payments. In the report, DepartmentfoffHomelandfSecurity’sfCompliancefwithfthef
   ImproperfPaymentsfEliminationfandfRecoveryfActfoff2010, OIG-12-48, issued March
   2012, we identified that the Department needed to:

       •   improve controls to ensure completeness and accuracy of reporting;
       •   improve guidance; and
       •   increase efforts to recover improper payments.

   Specifically, the Department should ensure that all payments subject to testing are
   tested and reported and that recovery audit rates are reported accurately. Independent
   parties should perform test work and review sample payments. Also, the Department
   should develop guidance on applying results of test work using alternative sampling
   methodologies. Finally, the Department should perform recovery audits when cost
   effective, and those audits should target payments with a higher potential for
   overpayment and recovery.


www.oig.dhs.gov                               2                                       OIG-14-64

                          OFFICE OF INSPECTOR GENERAL 

                                 Department of Homeland Security 



   In the report, DepartmentfoffHomelandfSecurity’sfFYf2012fCompliancefwithfthe
   ImproperfPaymentsfEliminationfandfRecoveryfActfoff2010, OIG-13-47, issued March
   2013, we identified that DHS needed to improve controls to ensure the accuracy and
   completeness of improper payment reporting. Specifically, it needed to improve its
   review processes to ensure that the risk assessments properly support the components’
   determination of programs susceptible to significant improper payments. Furthermore,
   DHS needed to segregate duties adequately and improve its policies and procedures to
   identify, reduce, and report DHS and the components’ improper payments.

   Results of Audit
   To comply with IPERA, an agency is required to conduct risk assessments and report and
   publish the results of selected program testing in its AFR. It must also achieve and report
   improper payment rates of less than 10 percent for each program. KPMG LLP (KPMG)
   did not identify any instances of noncompliance with IPERA.

   Additionally, we reviewed DHS’ processes and procedures for estimating its annual
   improper payment rates. Based on our review, DHS has improved its internal controls
   over the accuracy and completeness of agency reporting and in its efforts in to reduce
   and recover overpayments. Specifically, we did not identify any new internal control
   weaknesses in the current year. Also, DHS and the components’ efforts in the past year
   have closed many of the open recommendations from the reports—Departmentfoff
   HomelandfSecurity’sfCompliancefwithfthefImproperfPaymentsfEliminationfandfRecoveryf
   Actfoff2010, OIG-12-48, issued March 2012; and DepartmentfoffHomelandfSecurity’sfFYf
   2012fCompliancefwithfthefImproperfPaymentsfEliminationfandfRecoveryfActfoff2010,
   OIG-13-47, issued March 2013. See appendix D for the one remaining open and resolved
   recommendation.

   We also determined that the U.S. Customs and Border Protection (CBP) properly
   performed IPERA disbursement testing for the Border Security Fencing program.

           DHS’ Compliance with IPERA

           We contracted with KPMG to audit DHS to determine whether it met the
           following requirements prescribed by IPERA:

                  •	 published an AFR and accompanying information on the agency website,
                     as required by OMB;
                  •	 conducted required program-specific risk assessments;
                  •	 published improper payment estimates for high-risk programs;

www.oig.dhs.gov                                 3	                                       OIG-14-64

                           OFFICE OF INSPECTOR GENERAL 

                                  Department of Homeland Security 



                  •	 published programmatic corrective action plans;
                  •	 published, and has met, annual reduction targets for programs at risk;
                  •	 achieved and reported a gross improper payment rate of less than
                     10 percent for all programs tested; and
                  •	 reported on its efforts to recover improper payments.

           KPMG did not identify any instances of noncompliance with IPERA.

           Accuracy and Completeness of DHS’ Improper Payment Reporting

           DHS has made significant improvements to its IPERA processes in the past year
           to help ensure the accuracy and completeness of its improper payment
           reporting. Specifically, DHS has—

                  •	 segregated duties appropriately;
                  •	 improved its review processes to help ensure that components’ risk
                     assessments are properly supported; and
                  •	 improved its policies and procedures to identify, reduce, and report
                     improper payments.

           Segregation of Duties

           DHS has addressed prior audit concerns of CBP’s segregation of sample testing
           duties. CBP implemented proper segregation of duties designed to reduce
           improper payments. In prior audits (fiscal years (FY) 2011 and 2012), CBP did not
           segregate duties for payment reviewers to minimize the risk of the potentially
           conflicting goals of correctly assessing payments and the achievement of
           improper payment reduction targets. The ImproperfPaymentsfReductionf
           Guidebook,fVersionf3.0f(Guidebook) requires that at a minimum, payment
           reviewers should not have had a role in processing, approving, and/or disbursing
           the specific payments under review. During FY 2013, CBP changed its policies to
           reflect the Guidebook’s requirements. Specifically, the first question of its FY
           2013 testing checklist now requires the processor to be different from the
           researcher.

           Components’ Risk Assessments

           Since our FY 2012 audit, components have made some improvements in their
           processes to support the conclusions made in their risk assessments. Specifically,
           they interviewed the appropriate program personnel and obtained proper

www.oig.dhs.gov                                   4	                                        OIG-14-64

                           OFFICE OF INSPECTOR GENERAL 

                                 Department of Homeland Security 



           approval of the risk assessments. However, some components did not provide
           sufficient information in their risk assessments that would allow an outside
           reviewer to understand the key determinants of program risk.

           Risk Assessment Interviews

           In our prior audit, the United States Coast Guard (USCG) and CBP did not always
           perform interviews as part of their IPERA risk assessment process. Similarly, the
           Federal Emergency Management Agency (FEMA) performed interviews but did
           not interview program managers or senior management as required by the DHS
           Guidebook. During FY 2013, CBP and USCG appropriately performed interviews
           to support their risk assessments; and FEMA interviewed the appropriate
           program officials, as required. DHS has addressed prior audit concerns with CBP,
           USCG, and FEMA’s risk assessment interview process.

           Risk Assessment Approval

           In FY 2012, the CBP Chief Financial Officer (CFO) or Deputy CFO did not review
           and approve CBP’s final risk assessment prior to DHS Risk Management and
           Assurance (RM&A) Division’s final review. According to the DHS Guidebook
           Version 3.0, the Component CFO or Deputy CFO must review and approve risk
           assessments prior to RM&A Division’s final review and approval. In FY 2013,
           CBP’s CFO reviewed and approved CBP’s risk assessment as required by the
           Guidebook. Therefore, DHS has addressed prior audit concerns regarding CBP’s
           CFO approving its risk assessment prior to RM&A Division’s final review.

           Risk Assessment Support

           Consistently, components have not always provided enough information in their
           risk assessments that would allow an outside reviewer to understand the key
           determinants of program risk. The DHS Guidebook requires components to
           perform a comprehensive risk assessment to identify high-risk programs
           susceptible to making improper payments. To accomplish this task, the DHS
           Guidebook requires the components to perform the following:

                  1.	 Identify programs and determine population and scope of the 

                      component programs assessed.

                  2.	 Conduct and document interviews.
                  3.	 Populate a risk template.



www.oig.dhs.gov                                  5	                                    OIG-14-64

                           OFFICE OF INSPECTOR GENERAL 

                                  Department of Homeland Security 



                  4.	 Validate risk elements and weights for each component program 

                       evaluated.

                  5. 	 Identify programs at significant risk of improper payments.

           Additionally, the DHS Guidebook requires components to evaluate programs
           across a set of risk conditions, which are factors that directly or indirectly affect
           the likelihood of improper payments within each program. Factors include
           payment processing controls, human capital, and operating environment, among
           others (see appendix E). The Guidebook requires that components assign a
           weight (risk weight) and score (risk score) to the risk conditions on each
           program’s overall risk. The risk weight reflects the levelfoffimportancefandf
           influencefand the risk score reflects the degreefof risk conditions may pose to a
           particular program. The risk weight explanations should be included in the risk
           assessment and be understandable to an outside reviewer.

           During our FY 2013 audit, CBP updated its risk assessment to include a rationale
           for each risk weight and score. However, as reported in FY 2012, the
           Transportation Security Administration (TSA) and FEMA risk weight explanations
           did not provide enough information to make them understandable to an outside
           reviewer. Specifically, all TSA risk weights relied on the following generic
           statement (or a slight variation of it):

                    AllfTSAfpaymentsfarefprocessedfthroughfthefUSCGfFinancefCenterf
                    infChesapeake,fVA.fAllfcontractsfpaymentsfarefgenerallyfhandledfinf
                    thefsamefmanner.fWefdeterminedfthefweightfoffeachfriskfconditionf
                    basedfonfissuesffoundfduringfexternalfaudits,finternalfcontrolf
                    reviewsfandfinterviewsfwithfprogramfofficials.

           FEMA changed the risk weights for some risk conditions but used the same
           explanation for all programs.

           DHS Guidebook

           The DHS Guidebook provided components with background on applicable IPERA
           guidance and instructions to help the Department meet IPERA requirements. In
           prior years, components often relied on additional instructions to complete the
           Guidebook requirements because of the inconsistency of its instructions. The
           RM&A Division made some improvements to the Guidebook in October 2012
           with Version 3.0. For example, the Guidebook updated the risk assessment
           templates; and stated the type of documentation that would be required from
           components to support risk assessments. The Guidebook also updated risk

www.oig.dhs.gov                                    6	                                      OIG-14-64

                        OFFICE OF INSPECTOR GENERAL 

                               Department of Homeland Security 



           assessment questionnaires to be more comprehensive; and expanded the
           definitions of the risk conditions for payment processing controls and contract
           management. Because of these measures, DHS has addressed prior audit
           concerns of modifying the Guidebook to add clarification on how to complete
           the risk assessment.

           DHS RM&A Division’s Reviews

           DHS RM&A Division has improved its review process to ensure that the
           components were properly supporting their risk assessments. The Division
           obtained and reviewed components’ interviews to ensure the risk weights and
           scores had proper support. It also established standard operating procedures to
           identify how IPERA reviews and approvals will be coordinated. Despite these
           improvements, some components’ risk assessments still did not have proper
           support.

           Risk Assessment Reviews

           During the FY 2012 audit, we determined that RM&A Division’s risk assessment
           review consisted of comparing the FYs 2011 and 2012 risk weight and score
           narratives to identify differences. The Division review did not include obtaining
           and reviewing the summary interviews to ensure that the components properly
           supported the risk weights and scores. In FY 2013, the RM&A Division began
           reviewing the submissions and coordinated with the components when
           necessary to ensure that risk weights and scores are accurate and properly
           supported. The RM&A Division completed all reviews in March 2013. However,
           these reviews did not resolve outstanding issues with the support provided for
           risk weights in TSA and FEMA’s risk assessments.

           Standard Operating Procedures

           Also in the FY 2012 audit, we determined that the RM&A Division frequently
           reviewed and approved IPERA deliverables using alternative methods instead of
           the required system. For example, USCG received an email message from the
           RM&A Division approving the test plan in May, but the system designated to
           document the test plan did not document RM&A’s approval until September.
           According to the DHS Guidebook, components must obtain approval from the
           RM&A Division for each test plan before beginning any test work. In July 2013,
           the RM&A Division issued Version 1.0 of the Risk, Management, and Assurance,
           Improper Payments Program, Standard Operating Procedures, which explain

www.oig.dhs.gov                                7                                        OIG-14-64

                       OFFICE OF INSPECTOR GENERAL 

                               Department of Homeland Security 



           how the Division will coordinate with components to review and approve IPERA
           test plans. During the current audit, all of the test plans were appropriately
           approved. This demonstrates that DHS has established standard operating
           procedures to address prior audit concerns of review and approval coordination
           with the components.

           Reducing and Recapturing Improper Payments

           DHS has made progress reducing and recapturing improper payments. In the FY
           2011 audit, not all components conducted payment recovery audits as required
           by IPERA. Specifically, DHS decided not to perform recovery audits for the
           Domestic Nuclear Detection Office (DNDO) and TSA. The United States Secret
           Service (USSS) did not conduct a recovery audit because it did not enter into a
           recovery audit contract in time to perform an audit in FY 2011. Since the FY 2011
           audit, DNDO and TSA have properly performed recovery audits as planned and
           reported in the Department’s AFR. Also, as allowed by IPERA, USSS determined
           that it was not cost effective to perform recovery audits. DHS has addressed
           prior audit concerns regarding reducing and recapturing improper payments.

           Disbursement Testing

           CBP properly performed IPERA disbursement testing for the Border Security
           Fencing program. For FY 2012, CBP disbursed $418.2 million in support of its
           Border Security Fencing program. As defined in the DHS sampling methodology,
           CBP tested 186 payments totaling $106.5 million. During FY 2013, we retested
           109 ($66.8 million) of the original 186 payments and determined that CBP’s
           improper payment error rate, 0.01 percent, was reasonable.




www.oig.dhs.gov                                8                                       OIG-14-64

                       OFFICE OF INSPECTOR GENERAL 

                              Department of Homeland Security 



   Appendix A
   Objectives, Scope, and Methodology
   The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
   established by the HomelandfSecurityfActfoff2002 (Public Law 107-296) by amendment
   to the InspectorfGeneralfActfoff1978. This is one of a series of audit, inspection, and
   special reports prepared as part of our oversight responsibilities to promote economy,
   efficiency, and effectiveness within the Department.

   The audit objective was to determine whether DHS complied with the Improperf
   PaymentsfEliminationfandfRecoveryfActfoff2010fin FY 2013. In addition, we also
   evaluated the accuracy and completeness of DHS’ improper payment reporting and its
   efforts in reducing and recovering improper payments for FY 2013.

   The scope of the audit was DHS’ FY 2013 efforts to comply with IPERA. We limited our
   scope to certain DHS components. We reviewed components identified in our audit,
   DepartmentfoffHomelandfSecurity’sfFYf2012fCompliancefwithfthefImproperfPayments
   EliminationfandfRecoveryfActfoff2010, OIG-13-47, issued March 2013, that were working
   on improving controls to ensure the accuracy and completeness of improper payment
   reporting. Those components were the United States Coast Guard, U.S. Customs and
   Border Protection, Federal Emergency Management Agency, U.S. Immigration and
   Customs Enforcement, and Transportation Security Administration. We also reviewed
   the Transportation Security Administration, Domestic Nuclear Detection Office, and
   United States Secret Service’s progress in conducting recovery audits.

   To understand DHS’ requirements under IPERA and DHS’ policies and procedures to
   meet those requirements, we obtained and reviewed relevant authorities and guidance.
   These included IPERA, OMB Circular A-123, Appendix C, RequirementsfforfEffectivef
   MeasurementfandfRemediationfoffImproperfPayments, revised Parts I and II, April 14,
   2011, and the DHS ImproperfPaymentsfReductionfGuidebook. We also interviewed
   officials in DHS’ Office of Chief Financial Officer and the selected components directly
   involved with IPERA implementation.

   We contracted with an independent public accounting firm, KPMG LLP (KPMG), to
   determine DHS compliance with IPERA. The contract required that KPMG perform its
   audit in accordance with generally accepted government auditing standards. Those
   standards require that the auditors plan and perform the audit to obtain sufficient,
   appropriate evidence to provide a reasonable basis for their findings and conclusions
   based upon the audit objectives.


www.oig.dhs.gov                               9                                        OIG-14-64

                        OFFICE OF INSPECTOR GENERAL 

                               Department of Homeland Security 



   At each component, KPMG performed the following:

       •	   obtained and read relevant authorities and guidance;
       •	   interviewed component management;
       •	   reviewed component policies;
       •	   reviewed components’ risk assessment processes;
       •	   reviewed components’ sampling plans and methodologies; and
       •	   reviewed components’ corrective action plans.

   At DHS, KPMG reviewed DHS’ FY 2013 AFR to determine compliance with reporting
   requirements.

   To evaluate the accuracy and completeness of DHS’ improper payment reporting, we
   reviewed the processes and procedures for DHS and the following DHS components:

       •	   United States Coast Guard;
       •	   U.S. Customs and Border Protection ;
       •	   Federal Emergency Management Agency;
       •	   U.S. Immigration and Customs Enforcement; and
       •	   Transportation Security Administration.

   Specifically, we performed the following procedures:

       •	   reviewed components’ risk assessments;
       •	   reconciled components’ risk assessments with FY 2012 gross disbursement data;
       •	   reviewed sample test plans and results; and
       •	   reviewed DHS’ processes and procedures used to estimate the improper
            payment rate, including the risk assessment process, testing, and reporting.

   We also reviewed DHS’ efforts to recover improper payments for the following
   components:

       •	 Domestic Nuclear Detection Office;
       •	 Transportation Security Administration; and
       •	 United States Secret Service.

   To evaluate DHS’ performance in reducing and recapturing improper payments, we
   determined DHS’ progress in implementing Recommendation #5 from the audit report,
   DepartmentfoffHomelandfSecurity’sfCompliancefwithfthefImproperfPaymentsfEliminationf
   andfRecoveryfActfoff2010, OIG-12-48, March 2012.

www.oig.dhs.gov                               10                              	      OIG-14-64

                       OFFICE OF INSPECTOR GENERAL 

                              Department of Homeland Security 



   We conducted sample payment testing for the CBP Border Security Fencing program
   only. To complete this testing, we obtained from CBP a listing of disbursements used to
   determine its Border Security Fencing estimate of improper payments. This listing
   contained 186 disbursements, of which we judgmentally selected 109 to re-perform
   IPERA sample testing. We reviewed contracts, invoices, and receiving documentation.
   We analyzed whether CBP properly determined proper and improper payments during
   the IPERA testing for the CBP Border Security Fencing program.

   We conducted this performance audit between July 2013 and February 2014 pursuant
   to the InspectorfGeneralfActfoff1978, as amended, and according to generally accepted
   government auditing standards. Those standards require that we plan and perform the
   audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
   findings and conclusions based upon our audit objectives. We believe that the evidence
   obtained provides a reasonable basis for our findings and conclusions based upon our
   audit objectives.




www.oig.dhs.gov                              11                                       OIG-14-64

                                OFFICE OF INSPECTOR GENERAL 

                                           Department of Homeland Security 



   Appendix B
   Management Comments to the Draft Report
                                                                                                U.S. Department of I Iomeii nd Stcurity
                                                                                                \Vasbingtoo, DC 20 528



                                                                                               Homeland
                                                                                               Security
                                                                   April 3, 201 4


                  :-.-1EMORANDUM FOR:             Anne L. Richards
                                                  Assistant illspector General for Audits
                                                  Office of Inspector General

                  FROM:                           Jim H. Crumpat.:ker
                                                  Director                   \~L~
                                                  Departmental GAO-OIG Liaison Office

                  SUBJECT:                        OIG Draft Report: "FY 2013 A udit of tbe Department of Homeland
                                                  Security's Compliance with the Improper Payments Elimination and
                                                  Recovery Act of 2010" (Project No. 13-01 R-Alffi-DHS)


                  Thank you for the oppot1unity to review and comment on this draft report. The U.S. D epartment of
                  Homeland Security (DHS) Management Directorate (MGMT) appreciates the Office of [nspector
                  General's (OlG's) work in planning and conducting its review and issuing this report.

                  DHS MGMT is pleased to note that for the fifth year in a row, KPMG LLP, the Department's
                  independent auditor, d id not find any instances of noncompliance with the Improper Payments
                  Elimination and Recovery Act of20 l 0 (IPERA) and its predecessor law the Improper Payments
                  Information Act nf2002. In addition, OJG did not identify any new internal control weaknesses and it
                  determined that the U .S. Customs and Border Protection had properly performed lPERA disbursement
                  testing for the Border Security Fencing program. OIG also found that DR S and the Components'
                  efforts during the past year had resulted in the c losing of all open prior year TPERA-related
                  recommendations except for one.

                  The draft report did not c ontain any new recommendations; however, OfG did request an update on
                  progress being made to close the one remaining open prior year recommendation with w hich DRS
                                                                         1
                  MGMT had coocun·ed. Specifically, OIG recommended that the DHS Chief Financial Officer
                  (CFO):

                  Recommendation: Ensure that the DHS Risk Management and Assumnce Division requires all
                  Components to provide detailed explanations and references to supporting documentation as to how
                  they detem1ined each risk weight and risk score.



                  1
                    "Department of Homeland Security's FY 201 2 Compliance with the Improper Payments Elimination and Recovery Act
                  of 20 10," OJG-13-47 (Washington, D.C., March 12, 2013).




www.oig.dhs.gov                                                      12                                                                   OIG-14-64

                               OFFICE OF INSPECTOR GENERAL 

                                         Department of Homeland Security 





                  Update: The DHS CFO's Risk Management and Assurance Division (RM&A) continues to take
                  actions during FY 20 14 to fully meet the intent of this recommendation. Specifically, for the current
                  year, RM&A has provided Componen L~ with g uidance and direction on Lhe proper supporllhat is
                  necessary to substantiate their risk scores and risk weights. Additionall y, RM&A's FY 2014 processes
                  a nd procedures include an extensive, beginning to end, review and analysis of Components' risk
                  assessment documentation that will ensure Component risk assessments' weights and scores are fully
                  substantiated by supporting documentation. This beginning to end review and analysis consists of the
                  comparison of prior to current year risk assessments and the assurance thai current year risk weights
                  and scores correlate to current year net testable disbursements. As part of the FY 2014 IPERA testing
                  cycle, RM&A has also implemented the use of a standardized interview temp late that provides
                  Components with a structured questionnaire to ensure risk assessment content is based on identifiable
                  progr am changes and risks. Estimated Completion Date: August 3 1, 2014

                  Again, thank you for the opportunity to review and comment on this draft report. Technical
                  comments were previously provided under separate cover. Please feel free to contact me if
                  you ha ve any questions. We look forward to workin g with you in the future.




                                                                                                                      2




www.oig.dhs.gov                                                 13                                                         OIG-14-64

                          OFFICE OF INSPECTOR GENERAL 

                                  Department of Homeland Security 



   Appendix C 

   IPERA Process 

   On July 22, 2010, the President signed Public Law 111-204, ImproperfPaymentsf
   EliminationfandfRecoveryfActfoff2010 (IPERA or the Act), which amended the Improperf
   PaymentsfInformationfActfoff2002 (IPIA). As defined by the IPIA, the term improper
   payment means:

       A.	 any payment that should not have made or that was made in an incorrect
           amount (including overpayments and underpayments) under statutory,
           contractual, administrative, or other legally applicable requirements; and
       B.	 includes any payment to an ineligible recipient, any payment for an ineligible
           good or service, any duplicate payment, any payment for a good or service not
           received (except where such payments where authorized by law), and any
           payment that does not account for credit for applicable discounts.2

   IPERA requires that the head of each agency periodically review all programs and
   activities administered, and identify the programs and activities that may be susceptible
   to significant improper payments. These reviews shall take into account risk factors
   likely to contribute to the susceptibility of significant improper payments. According to
   IPERA, beginning with fiscal year 2013, a program is susceptible to improper payments if
   improper payments in the program or activity in the preceding fiscal year exceeded $10
   million and account for 1.5 percent or more of program outlays or $100 million.

   For each program identified as susceptible to significant improper payments, IPERA also
   requires that the head of the agency produce a statistically valid estimate, or use an
   OMB-approved methodology to estimate improper payments made by each program
   and activity, and include those estimates in the accompanying materials of the agency’s
   annual financial report. For FY 2013, DHS identified 11 programs as high risk for
   improper payments based on FY 2013 risk assessments and FY 2012 payment sample
   testing. Of the $13.8 billion in payments made for these high-risk programs, DHS
   estimates it made a total of $178 million in improper payments, a 1.30 percent error
   rate.




   2
    The Office of Management and Budget Circular A-123, Appendix C, RequirementsfforfEffectivef
   MeasurementfandfRemediationfoffImproperfPayments, April 14, 2011, also requires a payment to be
   considered improper when an agency’s review is unable to discern whether the payment was proper as a
   result of insufficient or lack of documentation.

www.oig.dhs.gov                                     14                                     	      OIG-14-64
                          OFFICE OF INSPECTOR GENERAL 

                                  Department of Homeland Security 



           Table 1: DHS FY 2013 Estimated Improper Payment Amounts and Rates 

                    DHS Component                   Estimated   Improper   Improper
                                                    Payment     Payments   Payment
                                                   Population ($ millions)  Rate (%)
                                                   ($ millions)
   U.S. Customs and Border Protection
       Border Security Fencing                          $173          $0       0.01%
       Custodial - Refund & Drawback                  $1,937          $7       0.36%
   Federal Emergency Management Agency
       Disaster Relief Program – Vendor Payments        $750        $23        3.11%
       Insurance – National Flood Insurance           $2,127          $0       0.02%
       Program
       Grants – Public Assistance Programs            $3,670        $41        1.11%
       Grants – Homeland Security Grant Program       $1,699        $22        1.31%
       Grants – Assistance to Firefighters Grants       $425          $5       1.07%
       Grants – Transit Security Grants Program         $328          $7       2.06%
       Grants – Emergency Food and Shelter               $89          $0       0.34%
       Program
   U.S. Immigration and Customs Enforcement
       Enforcement and Removal Operations             $1,691        $73        4.33%
   National Protection and Programs Directorate
       Federal Protective Service                       $878          $0       0.03%
   DHS-All Programs                                  $13,767       $178        1.30%
   Source: Data from DHS FY 2013 Agency Financial Report. DHS calculated its FY 2013 estimated
   improper payment rates using FY 2012 payment data. Improper payment rate variances due to
   rounding.

   On October 23, 2012, the Office of the Chief Financial Officer, DHS Risk Management
   and Assurance Division (RM&A Division) issued version 3.0 of its ImproperfPaymentsf
   ReductionfGuidebook (DHS Guidebook).3 This Guidebook supports the Department’s
   efforts to identify, reduce, report, and recoup improper payments. It also provides DHS
   Components with instructions for complying with IPERA, Executive Order 13520, and
   OMB guidance for the implementation of IPERA.




   3
    On June 10, 2013, the DHS Risk Management and Assurance Division issued version 4.1 of its Improperf
   PaymentsfReductionfGuidebook for use in FY 2014.

www.oig.dhs.gov                                      15                                             OIG-14-64
                        OFFICE OF INSPECTOR GENERAL 

                                Department of Homeland Security 



   The diagram below shows the process DHS Components are required to follow to
   identify, estimate, report, and recover improper payments.




   Source: Information obtained from the Office of Chief Financial Officer, Risk Management and
   Assurance Division, DHSfImproperfPaymentsfReductionfGuidebook, Version 3.0, October 23,
   2012.




www.oig.dhs.gov                                  16                                         OIG-14-64

                       OFFICE OF INSPECTOR GENERAL 

                              Department of Homeland Security 



   Appendix D
   Open and Resolved Recommendation
           Open and Resolved Recommendation as previously reported in the
           Department of Homeland Security’s FY 2012 Compliance with the Improper
           Payments Elimination and Recovery Act of 2010, OIG-13-47, March 2013

           We recommend that the Chief Financial Officer, Department of Homeland
           Security ensure that—

           Recommendation

           DHS Risk Management and Assurance Division requires all components to
           provide detailed explanations and references to supporting documentation as to
           how they determined each risk weight and risk score.




www.oig.dhs.gov                              17                                     OIG-14-64

                       OFFICE OF INSPECTOR GENERAL 

                              Department of Homeland Security 



   Appendix E
   DHS IPERA Risk Conditions
   DHS IPERA Risk      Description
   Conditions
   Payment             Management’s role in the creation, implementation, and
   Processing          enforcement of internal controls.
   Controls
                       Existence of current and accurate internal control documentation.

                       Assessment of design and operating effectiveness of internal
                       control over payment processes.

                       Identification of deficiencies within financial processes and internal
                       control related to payment processes.

                       Presence and effectiveness of compensating controls to reduce the
                       risk of making an improper payment.

                       Estimated error rates and amounts from previous year’s testing.

                       Extent that relevant external databases are used to verify recipient
                       eligibility (e.g., Do Not Pay Lists).
   Quality of Internal Periodic internal program reviews to determine if payments are
   Monitoring          made properly.
   Controls
                       Presence and effectiveness of compensating controls that may
                       provide real or near real-time monitoring capability.

                       Support for test of design and test of operating effectiveness work.

                       Extent and quality of monitoring to recipients to verify that funds
                       are used for their intended purpose (Grants).




www.oig.dhs.gov                               18                                        OIG-14-64

                    OFFICE OF INSPECTOR GENERAL 

                           Department of Homeland Security 



   DHS IPERA Risk   Description
   Conditions
   Human Capital    Level of turnover within the program and average tenure of
                    program staff.

                    Qualifications of program staff (e.g., experience and training of
                    personnel determining eligibility or certifying payments).

                    Existence of pressures to perform (e.g., emphasis on expediting
                    payments).

                    Level of oversight and opportunity for fraudulent activity (e.g., the
                    organizational structure of the program staff).
   Complexity of    Time the program has been in operation.
   Program
                    Variability of program interpretation and application (e.g., Laws,
                    regulations, or standards required for the program’s compliance).
   Nature of        Types of payments (e.g., contracts, payroll, grants).
   Payments and
   Recipients       Volume, size, and duration of payments.

                    Number of vendors or contracts paid by the program.

                    Identification of deficiencies or history of improper payments
                    within recipients.

                    Type and size of program recipients and existence of subrecipients.

                    Maturity of recipients’ finance function and financial infrastructure.

                    Recipients’ experience with administering Federal payments.

                    Number of vendors being paid by the program (Contracts).




www.oig.dhs.gov                            19                                           OIG-14-64

                    OFFICE OF INSPECTOR GENERAL 

                           Department of Homeland Security 



   DHS IPERA Risk   Description
   Conditions
   Operating        Existence of factors in the operating environment that necessitate
   Environment      or allow for loosening of financial controls.

                    Recent major changes in program funding, authorities, practices, or
                    procedures.

                    Level of fraudulent activities associated with the operating
                    environment.

                    Management’s experience with designing and implementing
                    effective compensating controls.

                    Issues identified with a component’s financial systems.
   Contract         Level of contract management weaknesses identified in previous
   Management       payment testing.

                    Frequency with which named contracting officer’s representative
                    reviews and approves invoices prior to payment.

                    Level of familiarity of goods and services listed on invoices.

                    Sufficiency of time to review invoices prior to payment.

                    Complexity of funding sources, cost allocations, and contract lines.

                    Timely payment of invoices per OMB guidance, which calls for
                    disbursement of funds within 15 days of receipt of a proper invoice.

                    Advantageous discounts are applied to those payments made
                    within the discount window.

                    Contractors are not reviewing and approving invoices on behalf of
                    the government.

                    Timely receipt and acceptance of goods and/or services.

                    Proper calculation of prompt payment interest, if invoice is paid late.



www.oig.dhs.gov                            20                                        OIG-14-64

                        OFFICE OF INSPECTOR GENERAL 

                                Department of Homeland Security 



   DHS IPERA Risk        Description
   Conditions
   Grant                 Nature of Recipients:
   Management
                         SF 133 Audit Clearinghouse information on quality of controls
                         within grant recipients.

                         Layers of grantees receiving program payments.

                         Quality of Internal Monitoring Controls:

                         The extent and quality of monitoring of recipients to verify that
                         funds are used for their intended purpose.

                         Limited access to documentation to support disbursements to
                         grant recipients.
   Source: Office of Chief Financial Officer, Risk Management and Assurance Division, DHSf
   ImproperfPaymentsfReductionfGuidebook, Version 3.0, October 23, 2012.




www.oig.dhs.gov                                  21                                          OIG-14-64

                      OFFICE OF INSPECTOR GENERAL 

                             Department of Homeland Security 



   Appendix F
   Major Contributors to This Report
   Sandra John, Director
   Devon Houston, Audit Manager
   Natalie Fussell, Program Analyst
   Jason Kim, Auditor
   Hope Franklin, Auditor
   Alejandro Jaca-Mendez, Auditor
   J. Christopher Chamberlain, Program Analyst
   Jeff Mun, Auditor
   Mohammad Islam, Statistician
   Kevin Dolloson, Communications Analyst
   Karen Gardner, Independent Referencer




www.oig.dhs.gov                             22                   OIG-14-64

                      OFFICE OF INSPECTOR GENERAL 

                            Department of Homeland Security 



   Appendix G
   Report Distribution
   Department of Homeland Security

   Secretary
   Deputy Secretary
   Chief of Staff
   Deputy Chief of Staff
   General Counsel
   Executive Secretary
   Director, GAO/OIG Liaison Office
   Assistant Secretary for Office of Policy
   Assistant Secretary for Office of Public Affairs
   Assistant Secretary for Office of Legislative Affairs
   Component Liaison, U.S. Coast Guard
   Component Liaison, U.S. Customs and Border Protection
   Component Liaison, Federal Emergency Management Agency
   Component Liaison, U.S. Immigration and Customs Enforcement
   Component Liaison, Transportation Security Administration
   Chief Privacy Officer

   Office of Management and Budget

   Chief, Homeland Security Branch
   DHS OIG Budget Examiner

   Congress

   Committee on Homeland Security and Governmental Affairs of the Senate
   Committee on Oversight and Governmental Reform of the House of Representatives




www.oig.dhs.gov                           23                                    OIG-14-64

ADDITIONAL INFORMATION

To view this and any of our other reports, please visit our website at: www.oig.dhs.gov.

For further information or questions, please contact Office of Inspector General (OIG)
Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov, or follow us on
Twitter at: @dhsoig.”

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to:

       Department of Homeland Security 

       Office of Inspector General, Mail Stop 0305 

       Attention: Office of Investigations Hotline 

       245 Murray Drive, SW 

       Washington, DC 20528-0305 


You may also call 1(800) 323-8603 or fax the complaint directly to us at
(202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
